Report No. D-2008-117          August 14, 2008




           Accuracy of Mechanization
           of Contract Administration
     Services Accounts Payable Information
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
DCMA                          Defense Contract Management Agency
DFAS                          Defense Finance and Accounting Service
DFARS                         Defense Federal Acquisition Regulation Supplement
DLAM                          Defense Logistics Agency Manual
MILDEP                        Military Department
MOCAS                         Mechanization of Contract Administration Services
USD(AT&L)                     Under Secretary of Defense for Acquisition, Technology,
                               and Logistics
WAWF                          Wide Area Workflow
                                       INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704


                                                                                  August 14, 2008


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                 FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               AUDITOR GENERAL, NAVAL AUDIT SERVICE
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Accuracy of Mechanization of Contract Administration Services Accounts Payable
         Information (Report No. D-2008-117)

We are providing this report for review and comment. We considered comments on a draft ofthis
report from the Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics, Defense Contract Management Agency, and Defense Finance and Accounting Service
when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The comments
from Under Secretary of Defense for Acquisition, Technology, and Logistics, Defense Contract
Management Agency, and Defense Finance and Accounting Service, Columbus were only
partially responsive. Therefore, we request additional comments on Recommendations A,l.e.,
B.1.a., B.l.b., B.2.c.1., B.2.c.2. and B.3.a. by September 14, 2008.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If possible,
send your comments in electronic format (Adobe Acrobat file only) to Audcolu@dodig.mil.
Copies of your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the / Signed / symbol in place of the actual signature. If
you anange to send classified comments electronically, you must send them over the SECRET
Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Jim Kornides at
(614) 751-1400, ext. 211 or Mr. Mark Starinsky at (614) 751-1400, ext. 231. The team members
are listed inside the back cover.



                                            ~                 a.fJJcwlv
                                             Patricia A, Marsh, CPA
                                             Assistant Inspector General
                                             Defense Financial Auditing Service
                    Report No. D-2008-117 (Project No. D2007-D000FJ-0196.000)
                                         August 14, 2008


                Results in Brief: Accuracy of Mechanization of
                Contract Administration Services Accounts
                Payable Information
What We Did                                                    The Under Secretary of Defense for Acquisition,
                                                               Technology, and Logistics needs to ensure that the
We assessed whether Defense Finance and Accounting
                                                               buying activities follow Federal and contractual
Service (DFAS) Columbus collected accurate and
                                                               requirements for completing receiving reports.
timely accounts payable data in the Unmatched Detail
Report for March 31, 2007 (742 Report) that it
                                                               DCMA needs to ensure that the DCMA accepting
maintains in the Mechanization of Contract
                                                               officials follow Federal and contractual requirements
Administration Services (MOCAS) system. We
                                                               for completing receiving reports, revise the DCMA
reviewed the internal controls as related to the audit
                                                               Guidebook to increase the timeliness of the receiving
objective and assessed DFAS Columbus’ compliance
                                                               report preparation process, and develop a proposal so
with the Prompt Payment Act. The DFAS Columbus
                                                               that contractors can submit corrected receiving reports
742 Report contained $3 billion in accounts payable
                                                               through Wide Area Workflow.
incurred by the Military Departments. We limited the
scope of the audit to data contained in the 742 Report.        Client Comments and Our
What We Found                                                  Response
DFAS Columbus did not properly identify and value              The Director, Defense Procurement, Acquisition
the Military Department accounts payable balances              Policy and Strategic Sourcing concurred with the
reported in its 742 Report. Specifically, DFAS                 recommendations. However, the comments did not
Columbus:                                                      address our recommendation to develop policy for
• inaccurately reported 73 percent of the $3 billion           receiving officials or assign responsibility for
    742 Report accounts payable balance, with                  shipment date accuracy.
    $2.1 billion overstated and $0.1 billion understated
    and                                                        The Director, DCMA partially concurred with the
                                                               recommendations. The Director did not concur with
• did not include at least $453.9 million of valid
                                                               the recommendation that contractors prepare receiving
    accounts payable in the DoD accounts payable
                                                               reports before shipment and he did not adequately
    balance.
                                                               address how DCMA would ensure the correct
                                                               acceptance date was entered. We revised our
The Defense Contract Management Agency (DCMA)
                                                               recommendation to clarify our intention.
offices, DFAS Columbus, and the buying activities did
not always enter shipment and acceptance data into
                                                               The Director, DFAS Columbus partially concurred
MOCAS accurately or in a timely manner.
                                                               with the recommendations. The Director stated that a
                                                               “proper” DD250 is one that is free from material
Contractors did not always prepare or distribute the
                                                               defects and that the corrected copy is the “proper”
receiving report correctly or in a timely manner.
                                                               DD250. We disagree with the Director’s comments
What We Recommend                                              that acceptance cannot occur before DFAS receives a
                                                               corrected DD250.
DFAS Columbus needs to review and correct Military
Department accounts payable balances so that reported
                                                               We request additional comments to clarify these
accounts payable are valid and accurate. They also
                                                               positions by September 14, 2008. Please see the
need to develop guidance to increase the accuracy of
                                                               recommendations table on the back of this page.
receiving report entry into MOCAS.

                                                           i
              Report No. D-2008-117 (Project No. D2007-D000FJ-0196.000)
                                   August 14, 2008


Recommendations Table
Client                         Recommendations             No Additional Comments
                               Requiring Comment           Required
Under Secretary of Defense     B.1.a., B.1.b.
for Acquisition, Technology,
and Logistics

Defense Contract               B.2.c.1., B.2.c.2.          B.2.a., B.2.b.
Management Agency

Defense Finance and            A.1.c., B.3.                A.1.a., A.1.b., A.1.d.
Accounting Service,
Columbus


Please provide comments by September 14, 2008.




                                              ii
Table of Contents

Results in Brief                                                                 i

Introduction                                                                     1

       Objectives                                                                1
       Background                                                                1
       Review of Internal Controls                                               2

Finding A. The Valuation and Existence of Data in the 742 Accounts Payable Report 3

       Recommendations, Client Comments, and Our Response                        8

Finding B. Accuracy and Timeliness of Shipment and Acceptance Data              11

       Recommendations, Client Comments, and Our Response                       18

Appendices

       A. Scope and Methodology                                                 23

       B. Material Inspection and Receiving Report Guidance                     26


Client Comments                                                                 29

Defense Procurement, Acquisition Policy and Strategic Sourcing                  29

Defense Contract Management Agency                                              31

Defense Finance and Accounting Service, Columbus                                36
Introduction
Objectives
Our audit objective was to assess whether the Mechanization of Contract Administration
Services (MOCAS) system contains accurate and timely accounts payable information.
We also reviewed the internal control program as it related to the overall objective and
assessed compliance with the Prompt Payment Act1 as it related to the accounts payable
information. See Appendix A for a discussion of the scope and methodology and prior
coverage related to the objectives.

Background
The Defense Finance and Accounting Service (DFAS) Columbus and the Defense
Contract Management Agency (DCMA) use MOCAS to administer and pay more than
317,000 contracts annually. DFAS Columbus uses information from MOCAS to create
four general reports of accounts payable. It then combines the reports and makes the
balances available to the applicable DFAS reporting entity for the Military Departments
(MILDEPs).

This audit focuses only on one of those reports, the Unmatched Detail Report, called the
742 Report. In this report are the accounts payable balances for goods or services
accepted within the last 6 months that are not matched to a contractor invoice. In most
instances, DFAS Columbus derives the accounts payable balance on the 742 Report by
taking the number of units accepted and multiplying it by the unit price. As of
March 31, 2007, the 742 Report included $3 billion in accounts payable for the
MILDEPs.

The MILDEPs reported a total accounts payable balance of about $18 billion as of
March 31, 2007. DFAS Columbus records indicated that $7.1 billion of the $18 billion
reported was derived from information contained in MOCAS. Approximately $3 billion
of the $7.1 billion was for goods or services accepted by DoD, but that DFAS had not yet
matched to an invoice from the contractor.

This audit was performed in support of Public Law 101-576, the “Chief Financial
Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-356, the
“Federal Financial Management Act of 1994,” October 13, 1994. Other criteria include
the Statement of Federal Financial Accounting Standards (SFFAS) No. 1, “Accounting
for Selected Assets and Liabilities,” March 30, 1993, and SFFAS No. 5, “Accounting for
Liabilities of the Federal Government,” September 1995.

SFFAS No. 1 provides that accounts payable include amounts owed by a federal entity
for goods and services received from other entities. The Standard requires an entity to


1
    Title 31 United States Code § 3901 (31 U.S.C. 3901).


                                                     1
recognize a liability for unpaid goods when it accepts title to the goods, whether the
goods are delivered or in transit. SFFAS No. 5 states that general purpose Federal
financial reports should recognize probable and measurable future outflows or other
sacrifices of resources arising from past exchange transactions.

Review of Internal Controls
We identified material internal control weaknesses at DCMA and DFAS Columbus as
defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
Procedures,” January 4, 2006. DFAS Columbus did not have adequate internal controls
in place for monitoring or reviewing the contents of the 742 Report. DCMA, DFAS
Columbus, and the buying activities did not have adequate internal controls in place to
ensure that shipment and acceptance data were input accurately and in a timely manner.
DCMA did not have internal controls in place to ensure that contractors distribute
receiving reports in a timely manner. In addition, DFAS Columbus did not have controls
in place to identify all instances for which it owed the contractor Prompt Payment
interest.

Implementing Recommendations A.1., B.1., B.2.a., B.2.b., and B.3. will improve the
DCMA and DFAS Columbus internal control procedures and result in improved
reporting of accounts payable. A copy of the final report will be provided to the senior
official responsible for internal controls in DCMA and in DFAS Columbus for
compliance followup.




                                             2
Finding A. The Valuation and Existence of
Data in the 742 Accounts Payable Report
DFAS Columbus did not properly value accounts payable that it included on the 742
Report and also included accounts payable that were not valid. This occurred because
DFAS Columbus did not have a process in place to monitor the valuation and existence
of the data used to compile the report. Specifically, DFAS Columbus:

   •   did not reduce the accounts payable balances to account for financing payments
       made before the final delivery of the item,
   •   included shipments that would never be paid through the MOCAS system,
   •   designed a system that does not value partial shipments correctly, and
   •   did not enter vital contract modifications in a timely manner.

As a result, DFAS Columbus inaccurately reported at least 73 percent of the $3 billion
742 Report accounts payable balance, with $2.1 billion in overstated payables and
$0.1 billion understated. The MILDEPs will not be able to rely on the 742 Report for
financial statement purposes until DFAS implements controls to ensure that all valid
accounts payable balances are included and are valued correctly. During the audit, DFAS
began taking corrective action to improve its processes.

742 Report Audit Sample and Analysis of Paid Invoices
To determine the accuracy of the 742 Accounts Payable Report, the audit included
judgmental sampling techniques and an analysis of paid invoices. We used judgmental
sampling to assess the valuation of amounts that DFAS reported and the reasons for
inaccuracies, and we used an analysis of paid invoices to assess the remaining shipments’
existence and valuation in the 742 Report as of March 31, 2007. See Appendix A for
additional detail on the judgmental sample.

The 742 Report contained 58,846 shipments. We judgmentally tested 171 of them to
determine if their accounts payable balances were valid and accurate as of
March 31, 2007. In addition, we determined the reasons for the inaccuracies. The
shipments totaled $1.8 billion (60 percent) of the $3 billion reported in the 742 Report.

Based on the results of the judgmental sample, we used DFAS payment data to assess the
existence and valuation of the remaining 58,675 shipments on the March 2007 742
Report. Specifically, we compared the 742 Report balances with the DFAS Columbus
paid invoice file from April 1, 2007, through September 1, 2007. We used the payment
amounts to determine if DFAS Columbus correctly valued the accounts payable balances.
We did not attempt to determine the reasons for differences between the 742 Report
payable amounts and the paid amounts.




                                             3
Valuation and Existence of Accounts Payable
DFAS Columbus did not correctly value the goods or services that contractors had
delivered or provided to DoD for which DFAS had not received an invoice. Further,
DFAS included shipment values that were not valid or could not be determined in the
valid accounts payable balances. Overall, for the 58,846 shipments that DFAS included
in the March 2007 742 Report, the data showed that DFAS correctly reported an accurate
accounts payable for only 3,237 shipments. Table 1 shows how many shipments DFAS
either valued correctly or incorrectly or where it included accounts payable that were not
valid or were undeterminable.

           Table 1. 742 Report Judgmental Sample and Payment Analysis
                                Judgmental Paid Invoice
            Results                 Sample       Analysis     Total
            Correct                     12          3,225     3,237
            Valued Incorrectly          69          3,607     3,676
            Not Valid                   48          1,368     1,416
            Undeterminable              42         50,475    50,517
            Total                      171         58,675    58,846


For 117 (69 plus 48) of the 171 sample shipments, the DFAS-reported accounts payable
balance was either inaccurate or not valid. An analysis of paid invoices showed that
4,975 (3,607 plus 1,368) shipment values were inaccurate or not valid. Incorrect or
invalid amounts were recorded by DFAS personnel, and DFAS Columbus did not detect
them because it did not perform any testing on the transactions that made up the 742
Report balance. In total, 42,715 (73 percent) of 58,846 shipments had a reported dollar
value of zero. DFAS did not perform research to determine whether these shipments
were goods and services received with a dollar value other than zero. We noted 772
shipments assigned a zero balance on the 742 Report for which DFAS Columbus
subsequently paid a total of $72 million.

We identified 42 sample shipments as undeterminable because adequate records were not
available to support the 742 Report accounts payable balances. The sample shipments
lacked cost records, and DFAS had not paid for the shipments when we concluded our
fieldwork. We also identified, through an analysis of paid invoices, that an additional
50,475 shipments that DFAS had not paid as of September 30, 2007, were
undeterminable.

As part of the judgmental sample, we examined the top 30 high-dollar accounts payable
on the 742 Report. The dollar value of the top 30 shipments represented more than half
of the reported amount for all 58,846 shipments. The data showed that DFAS
significantly misstated these balances. For example, the largest payable balance on the
report was $630 million. The supporting documentation for this balance showed the
account payable was valued at no more than $40,000. The contractor had not been paid
for the shipment as of September 30, 2007. The abnormally high-dollar value of this one


                                            4
shipment would have raised concern from DFAS Columbus personnel had they had
procedures to review and monitor the report.

Assigning an Accounts Payable Value to Shipments
In most instances, DFAS Columbus derived the accounts payable balance on the 742
Report by taking the number of units accepted and multiplying it by the unit price.
DFAS obtains the units accepted from the MOCAS data, which are derived from a
DD Form 250, “Material Inspection and Receiving Report” (DD250). See Appendix B
for more specifics about this guidance.

The Federal Acquisition Regulation does not require the contractor or DCMA to enter
unit prices on the receiving report. To compensate, DFAS normally uses contract records
contained in MOCAS to obtain unit prices of accepted goods and services.

The DFAS data showed that DFAS incorrectly valued 69 of the 171 sample shipment
accounts payable balances in the 742 Report. We identified three main causes for 48 of
the 69 inaccurate accounts payable balances for the shipments. The valuation errors
occurred because DFAS Columbus did not reduce the accounts payable balance for the
contract financing payments it had already made. In addition, DFAS did not enter
contract modifications in a timely or accurate manner or properly calculate the payable
balance for receipt of partial shipments. The remaining 21 shipments were incorrectly
valued for reasons specific to a shipment, or the data were unavailable for us to determine
why.

Our analysis of paid invoices showed that DFAS also incorrectly valued at least 3,607
other shipment payable balances. We did not attempt to identify the underlying causes
for the 3,607 shipments that our analysis of payment data showed were incorrectly
valued.

Contract Financing Payments Associated With the Shipment
DFAS Columbus incorrectly valued 21 shipments on the 742 Report because it did not
reduce the reported account payable for contract financing payments already made for the
delivered item. For these shipments, DFAS Columbus had paid the contractor at least
80 percent of the unit price. DFAS, therefore, significantly overstated the payable
amount when it included the total unit price of the shipment in the 742 Report. DFAS
Columbus should have considered the prior payments when estimating the accounts
payable balance.

For example, DFAS Columbus reported an accounts payable balance of $10.8 million for
one shipment, even though it had already paid $9.8 million to the contractor. DFAS
Columbus should have only reported the unpaid amount of $1 million as the accounts
payable balance for this shipment.

Had procedures been in place to review and monitor the 742 Report, DFAS Columbus
would have realized that contract financing payments were not taken into account. The
742 Report includes a field specifically for contract financing payments made; however,


                                            5
the March 2007 report always contained a zero dollar value. A DFAS review of the 742
Report would have most likely detected this oversight.

We discussed this issue with DFAS Columbus personnel during the course of the audit,
and they agreed that these shipments were overstated. They planned to develop an
estimate that would remove prior contract financing payments from the accounts payable
balances.

Contract Modifications
DFAS Columbus did not enter contract modifications into MOCAS accurately or in a
timely manner. This directly resulted in DFAS inaccurately valuing 18 shipments.
DFAS either entered the unit price incorrectly or it did not input in a timely manner a
modification to increase contract quantity. In four instances, MOCAS reported a zero
dollar accounts payable balance because information contained in the system indicated
that the shipments were not authorized. The information was incorrect.

Partial Shipments
DFAS Columbus did not correctly value nine shipments that were designated as partial
deliveries on the receiving report. DFAS either overstated the payable by valuing it at the
entire delivery price (two instances observed) or reported zero as an accounts payable
balance because MOCAS indicated that the quantity shipped was zero. The
misstatements occurred because DFAS did not design the 742 Report to accurately value
partial deliveries. For partial deliveries, DFAS should establish procedures to obtain
better valuation data, such as obtaining the dollar value on the receiving report, if one is
available.

We discussed this issue with DFAS Columbus personnel during the course of the audit.
They agreed that the shipments were not valued correctly and that they would develop an
estimation method to accurately value these payables.

Including Only Valid Accounts Payable
The March 2007 742 Report contained 1,416 shipments that were not valid accounts
payable. DFAS should not have included these shipments because they were either
already paid (13), were not MOCAS contracts (15), or had DCMA Notices of
Completion and were never intended for payment (1,388). Of the 1,416 shipments that
were not valid accounts payable, we identified 48 shipments through our judgmental
sample and identified the remaining 1,368 through our analysis of MOCAS payment
records.

Shipments That DFAS Already Paid
DFAS Columbus inappropriately included 13 shipments as accounts payable that it had
already paid. Five of those shipments had a zero dollar value on the 742 Report and no
misstatement occurred. DFAS personnel entered the remaining eight shipments into
MOCAS incorrectly and never removed them even though they had already paid them.




                                             6
Shipments for a Non-MOCAS Contract
DFAS included 15 shipments for one contract that it had transferred to a different
payment system. DFAS should not have included those shipments on the 742 accounts
payable balance because the 742 Report is only for MOCAS payables.

DCMA Notices of Completion as Accounts Payable
In preparing the 742 Report, DFAS Columbus inappropriately included Notice of
Completion data entered by DCMA contracting officers. The Notices of Completion are
not intended to signify government acceptance. DCMA uses them solely to track the
progress and completion of certain items in MOCAS. The only way for MOCAS to
process the Notices of Completion is to use a unique shipment number and process them
as source acceptances if they were actual DD250s. DCMA identifies Notices of
Completion by a shipment number beginning with “YYY.”

The 742 Report included payable balances for these shipments; specifically, 20 of our
sample shipments and 1,368 identified through our analysis of paid invoices. DFAS
Columbus should establish procedures so that acceptance data with shipment numbers
beginning with YYY are not included in the 742 Report balance.

We discussed this issue with DFAS Columbus personnel during the course of the audit.
They stated that these shipments should not have been included in the accounts payable
balance and that they would issue a systems change request to remove these shipments
from future accounts payable balances.

Supporting Documentation Not Available for Some Accounts
Payable Balances
Detailed records were not available to support accounts payable balances for 42 sample
shipments that DFAS included on the March 2007 742 Report, and the payables for these
shipments are likely not valid. For example, DFAS Columbus reported a balance of
$14 million for a sample shipment that did not have a price and indicated that it was a
partial delivery. We could not verify the reported payable amount because the receiving
report lacked unit cost information. DFAS had not paid the shipments as of
September 30, 2007, and there were either no receiving reports available or no unit price
on the receiving report to allow for valuation.

The 742 Report also included 50,475 shipments that DFAS had not paid as of
September 30, 2007. We did not determine why these shipments remained unpaid.

Conclusions
The current MOCAS 742 Report compilation process results in unreliable account
payable balances for the MILDEPs. DFAS Columbus inaccurately reported at least
73 percent of the $3 billion 742 Report accounts payable balance, with $2.1 billion
overstated and $0.1 billion understated. Until DFAS implements controls to ensure all
valid accounts payable balances are included and they are valued correctly, MILDEPs
will not be able to rely on the 742 Report for financial statement reporting purposes.


                                            7
DFAS Columbus documentation supported only $164 million (5 percent) of the $3 billion
balance. We verified $164 million of accounts payable through judgmental sampling and
an analysis of subsequent MOCAS payment records for the shipments included on the
March 2007 742 Report. We determined that the remaining $2.88 billion of accounts
payable (95 percent) was either misstated or not verifiable through payment data.
Table 2 provides a summary of the misstatements.


                  Table 2. Summary of 742 Report Misstatements
                                   (in millions)
                             Reported 742      Actual Accounts Difference
      Results                    Balance       Payable Balance (Absolute)
      Correct                      $164.0               $164.0          0
      Overstated                  2,227.3                116.6   $2,110.8
      Understated                     30.0               129.2       99.1
      Unverified                     626.3            Unknown   Unknown
      Total                      $3,047.6               $409.8   $2,209.9

DFAS overstated the 742 accounts payable detailed balance by at least $2.1 billion
(69 percent) and understated it by at least $0.1 billion (3.2 percent) as of March 31, 2007.
We were unable to validate $626.3 million (21 percent) of our judgmental sample and
payment analysis because those shipments were not paid as of September 30, 2007.
Although some of the reported accounts payable balances could be accurate, they likely
were either not valid or misstated.

DFAS needs to take immediate action to improve the accuracy of the 742 Report
accounts payable balances and establish procedures to monitor those improvements.
Without corrective action, DFAS will continue to calculate inaccurate accounts payable
balances for the MILDEPs.

Recommendations, Client Comments, and Our
Response
A1. We recommend that the Director, Defense Finance and Accounting Service
Columbus take corrective action so that shipments on the 742 Report are valid
accounts payable balances and accurately valued. Specifically:

       a. Review the high-dollar-value accounts payable balances at least three
times a year, including year-end, to ensure they are valid and accurately valued.

Client Comments. The Director, DFAS Columbus concurred with Recommendation
A.1.a. The Director stated that DFAS Columbus plans to conduct a review of the
Unmatched Detail Report three times a year to ensure all high-dollar accounts payable
balances are valid, accurate, and properly recorded in the financial statements.




                                             8
       b. Reduce the accounts payable amount by any contract financing that DFAS
has already paid the contractor on the line item.

Client Comments. The Director, DFAS Columbus partially concurred with
Recommendation A.1.b. The Director agreed that accounts payable should be reduced to
amounts that will actually be paid, as opposed to the entire invoice amount. DFAS
Columbus plans to implement a system change request that will estimate the accounts
payable using the contract liquidation rate. The estimate will not factor in line item data,
but will use all previous contract liquidation information.

Our Response. The Director’s comments are responsive.

       c. Develop a process to accurately value the accounts payable balance for
partial shipments.

Client Comments. The Director, DFAS Columbus concurred with Recommendation
A.1.c. The Director stated that a system change request has been initiated to remove one-
lot shipments from the 742 Report. To compensate, DFAS Columbus will estimate the
accounts payable balances for partial shipments. The estimate will be based on the
average one-lot payment by appropriation over the previous 6 months. DFAS plans to
apply that amount to the number of one-lot shipments without invoices.

Our Response. The Director’s comments were responsive; however, we have concerns
that a 6-month average will not be statistically valid. DFAS personnel have indicated
that historical data are only available for the previous 6 months. We acknowledge that it
might not currently be feasible to estimate beyond 6 months. We request that the
Director reconsider the estimation methodology to continue to include keeping more
historical data so that a valid statistical projection is possible in the future. We
recommend that the Director reconsider her position on this recommendation and provide
comments to the final report.

       d. Exclude shipments that DFAS has already paid, will not pay through
MOCAS, or are Notices of Completion. Notices of Completion can be identified
with the shipment number beginning with “YYY.”

Client Comments. The Director, DFAS Columbus concurred with Recommendation
A.1.d. The Director stated that DFAS personnel have already successfully removed all
fabricated shipment numbers beginning with “YYY” from the report.




                                             9
Finding B. Accuracy and Timeliness of
Shipment and Acceptance Data
The DCMA offices, DFAS Columbus, and the buying activities did not always enter
shipment and acceptance data into MOCAS accurately or in a timely manner, and
Defense contractors did not always prepare or distribute the receiving report correctly or
in a timely manner. This occurred for several reasons.

    •   DCMA did not always follow Federal and internal DCMA guidance related to
        using and processing receiving reports.
    •   The DCMA guidance did not have specific instructions to direct the receiving
        officials to ensure that the contractors followed Federal guidance related to the
        preparation and distribution of receiving reports.
    •   The buying activities did not always follow Federal guidance for use of the
        receiving report to annotate the receipt of goods.
    •   DFAS Columbus did not have adequate guidance for processing receiving
        reports.

As a result of the inaccurate and untimely data, DFAS Columbus understated the DoD
March 31, 2007, accounts payable balance by at least $453.9 million. Additionally,
there is a risk that DFAS Columbus did not comply with the Prompt Payment Act
because it was unable to identify all instances in which DoD owed Defense contractors
Prompt Payment interest.

Material Inspection and Receiving Report
Defense contractors, DCMA personnel, and DFAS Columbus personnel use a
DD Form 250, “Material Inspection and Receiving Report” (DD250) to process and
record shipment, receipt, and acceptance of goods and services purchased by DoD. The
DD250 provides evidence of Government contract quality assurance and evidence of
acceptance of goods and services.

Defense Federal Acquisition Regulation Supplement (DFARS) Appendix F, “Material
Inspection and Receiving Report,” December 19, 2006, contains instructions for the use,
preparation, and distribution of the DD250. The DCMA Guidebook provides DD250
input procedures for DCMA. See Appendix B for more specifics about this guidance.

Judgmental Sample of Shipment and Acceptance
Records
DFAS Columbus provided us with a database of shipment and acceptance records entered
into MOCAS between April 1, 2007, and June 30, 2007, based on the processed date.
We selected a judgmental sample of shipments associated with 16 DCMA offices. The
sample universe included 201 individual contracts and 1,824 shipment and acceptance
records that DFAS Columbus did not report in the DoD March 31, 2007, accounts


                                            11
payable balance. Of the 1,824 sample shipments, 1,476 shipments used source
acceptance and 348 used destination acceptance. See Appendix A for more specifics
about the sample universe.

Providing Accurate and Timely Acceptance Data
DCMA, DFAS Columbus, the buying activities, and the contractors did not always
ensure that MOCAS contained accurate or timely shipment and acceptance data.
Specifically, our discussions with DCMA personnel, the documentation we obtained
during site visits, and DD250s we reviewed revealed that MOCAS contained inaccurate
or untimely information for 6362 out of 1,824 total sample shipments. These shipments
represent about 35 percent3 of the total sample reviewed, and the activities’ actions
resulted in both inaccurate and untimely data for many shipments.

Timeliness of the Shipment and Acceptance Data
Of the 1,824 sample shipments, the activities did not enter the shipment and acceptance
information into MOCAS in a timely manner for 592 shipments.4 Of the 592 untimely
shipments, 378 shipments used source acceptance and 214 used destination acceptance.
The number of days they entered the information late ranged from 1 day to 1,070 days,
with about 100 days on average for all shipments. Shipments with source acceptance
averaged 122 days late. Shipments with destination acceptance averaged 62 days late.

For these shipments, we determined who or what caused the delay in entering the
shipment and acceptance data, and we found five different categories. Table 3
summarizes the categories and the number of shipments for each one. A discussion of
the delays follows the table.

           Table 3. Categories of Untimely Shipment and Acceptance Data
                                                    Shipments Shipments
                                                        With         With
                                       Number of       Source Destination
        Cause of Delay                 Shipments Acceptance Acceptance
        Buying Activity/Destination            52           0           52
        Contractor                             85          82            3
        DCMA                                   26          21            5
        Undeterminable*                       429         268         161
        Total                                 592         371         221
        *For these shipments, a lack of date stamps on the DD250s prevented us from
        determining which activity caused the delay.



2
  The 636 shipments with deficiencies in accuracy and timeliness included 592 untimely shipments and 334
inaccurate shipments, with 290 shipments deficient in both areas.
3
  This percentage only applies to the judgmental sample, and it cannot be applied to the entire universe.
4
  Of the 592 untimely shipments, we could quantify the number of days the activities delayed the shipment
and acceptance information for 523 shipments. For the remaining 69 shipments, we could not quantify the
number of days the activities delayed the information.


                                                   12
Buying Activity/Destination Delays
For 52 shipments, the receiving officials at the destinations did not annotate on the
DD250 the actual date they received the goods or the accepting officials at the buying
activities did not use Wide Area Workflow (WAWF)5 to show acceptance as required by
the contract. Of the 52 shipments delayed by the buying activities or receiving officials,
7 shipments used source acceptance and 45 used destination acceptance.

DFARS Appendix F requires receiving officials to annotate the actual arrival date of the
carrier in the Receiver’s Use block (Block 22) 6 of the DD250. If the receiving official
does not sign and date this block when the goods arrive, there is a risk that DFAS
Columbus could not comply with the Prompt Payment Act. DCMA representatives
offered no explanation as to why the buying activities or destinations did not comply with
the Federal guidance or the contract requirements.

The Under Secretary of Defense for Acquisition, Technology, and Logistics
(USD[AT&L]) provides oversight and policy direction for the DoD’s acquisition system
and contracting. Therefore, USD(AT&L) is in the best position to ensure that the buying
activities and destinations are properly annotating the actual date they received the goods
and using WAWF as required by the contract.

Contractor Delays
On 85 shipments, either the contractors delayed preparation of DD250s in WAWF or did
not distribute signed hardcopy DD250s in a timely manner. Of the 85 shipments, 82
shipments used source acceptance and 3 used destination acceptance. For the shipments
with WAWF DD250s, the associated bills of lading indicated that goods were shipped
before the preparation of the electronic DD250. For the hardcopy DD250s, DCMA date
stamps showed that the contractors did not distribute them promptly after the receiving
official signed.

Generally, DCMA was unable to determine why the contractors delayed preparation of
electronic DD250s or the distribution of signed hardcopy DD250s. On one occasion,
DCMA indicated to us that the contractor stated that it fell behind in entering DD250s
into WAWF. Because DFARS Appendix F states that the contractor is responsible for
distributing the DD250 promptly, the contractor must prepare electronic DD250s in
WAWF in a timely manner. DCMA should ensure that this occurs.




5
  WAWF is a secure web-based system for electronic invoicing, receipt, and acceptance. The WAWF
application enables electronic form submission of invoices, government inspections, and acceptance
documents (receiving reports).
6
  Block 22 is for Receiver’s Use. In this block, the receiving official signs to show receipt, quantity, and
condition of the items delivered.


                                                      13
Defense Contract Management Agency Delays
For 26 shipments, DCMA actions caused the delay. Of the 26 shipments, 21 shipments
used source acceptance and 5 used destination acceptance. Examples of delays include
the following.

    •    The accepting official did not sign the DD250 in a timely manner.
    •    The assigned DCMA office did not enter the DD250 information into MOCAS in
         a timely manner.

For the 26 shipments, DCMA provided various and differing reasons for the delays, such
as personnel being on extended leave.

Based on the guidance in DFARS Appendix F related to Block 217 of the DD250, the
accepting officials should ensure that they sign the DD250 in a timely manner. In
addition, the requirements outlined in the DCMA Guidebook for processing DD250s
state that the DCMA offices must ensure that they input the acceptance information no
later than the business day following receipt of the DD250.

Undeterminable Delays
For 429 shipments, we could not determine whether the contractor or another activity
caused the delay of shipment and acceptance data in MOCAS. Of the 429 shipments,
268 shipments used source acceptance and 161 used destination acceptance. In these
instances, we could not determine whether the contractor, the buying activity, DCMA, or
DFAS caused the delay because the activities did not date-stamp the hardcopy DD250s
upon receipt.

For 58 of the 429 shipments, contractors prepared the DD250s in WAWF. Because of
incorrect data on the DD250, the contractor subsequently prepared a hardcopy correction
to the WAWF DD250s for 12 of these shipments. WAWF currently does not have the
capability to allow the contractor to submit a corrected copy electronically. If WAWF
had this capability, some of these delays could be reduced. In addition, for the remaining
371 shipments, contractors originally prepared hardcopy DD250s. In March 2008, DoD
revised DFARS to require all acceptances to be input into WAWF. Therefore, as the
hardcopy acceptances are eliminated through the use of WAWF, these types of delays
could also be reduced.

Accuracy of the Shipment and Acceptance Data
Of the 1,824 sample MOCAS shipments, the responsible activities did not enter accurate
shipment and acceptance information for 334 shipments. Of the 334 inaccurate
shipments, 144 shipments used source acceptance and 190 used destination acceptance.
For these shipments, we determined four different causes for the inaccurate data. Table 4



7
 Block 21 is for Contract Quality Assurance. In this block, the accepting official signs that the items listed
on the DD250 conform to the contract in quality and quantity.


                                                     14
shows the causes of the inaccurate data and the number of shipments for each one. A
discussion of each cause follows the table.

            Table 4. Cause of Inaccurate Shipment and Acceptance Data
                                                         Shipments Shipments
                                                              With        With
                                             Number of       Source Destination
       Cause of Inaccuracy                   Shipments Acceptance Acceptance
       Acceptance and Receipt Date Accuracy         156          82          74
       Manual Entry Error                            82          58          24
       WAWF Entry Error                               5           4           1
       Wrong Shipment Date Used on DD250             91           0          91
       Total                                        334         144        190


Acceptance and Receipt Date Accuracy
For 156 shipments, the accepting or receiving officials did not document an accurate
acceptance or receipt date on the DD250 for several reasons. Of the 156 shipments with
an inaccurate acceptance or receipt date, 82 shipments used source acceptance and 74
used destination acceptance.

   •   The accepting officials at DCMA inaccurately recorded as the acceptance date the
       date they physically signed the DD250 rather than the date they actually accepted
       the goods. For some of these shipments, the DCMA accepting officials physically
       signed the DD250 after they accepted the goods because the contractor had not
       prepared the DD250 before acceptance. For others, the DCMA accepting
       officials simply did not sign the DD250 as soon as the contractor prepared it.

       FAR 46.501 requires that acceptance take place according to the terms of the
       contract. Therefore, if the contract had a source acceptance clause, acceptance
       should take place before shipment of the goods unless the contract or DCMA
       provides for alternate release procedures or certificate of conformance. For these
       shipments, we had evidence that the DCMA had previously accepted the goods
       through another DD250. However, DCMA personnel selected a later date when
       they signed the new WAWF or hardcopy DD250. The late dates were not the
       actual acceptance date, as evidence of earlier acceptance existed. By not entering
       the correct date, the accepting officials caused the acceptance date in MOCAS to
       be inaccurate.

   •   The receiving officials at the destinations did not complete Block 22 of the
       DD250 as required. Specifically, they did not record the actual receipt date but
       the date they accepted the goods, or they left Block 22 blank.

       When completing Block 22 of the DD250, receiving officials at the destinations
       must record the date that goods arrive, not the date that they physically sign for


                                            15
       acceptance. When the destinations recorded the later date, they provided
       MOCAS with an inaccurate date of receipt.

Manual Entry Error
For 82 shipments, manual entry of the acceptance data by either DCMA or DFAS caused
inaccuracies. Of the 82 shipments, 58 shipments used source acceptance and 24 used
destination acceptance. In some cases, the input technicians entered the wrong dates
from hardcopy DD250s into MOCAS. Specifically, in some instances the input
technicians entered the inspection date or the date the accepting official verified the
hardcopy corrections, rather than acceptance signature date, into the acceptance date
field. In other instances, human error in mistyping the signature dates and shipping
document receipt dates caused the inaccuracy in the MOCAS acceptance data. The
DCMA and DFAS input technicians must ensure that they enter the correct dates from
the DD250 when entering acceptance data into MOCAS.

As noted above, DoD revised the DFARS to require that all acceptances be input into
WAWF. Therefore, as hardcopy acceptances are eliminated through WAWF use, these
entry errors should be reduced.

Wide Area Workflow Entry Error
On five shipments, it appears that WAWF did not transfer the acceptance information to
MOCAS correctly. Of the five shipments with a WAWF entry error, four shipments used
source acceptance and one used destination acceptance. For these shipments, we could
not determine if WAWF was truly to blame for the inaccuracy or if someone manually
changed the dates in MOCAS because there was no data trail showing the information
that originally transferred from WAWF. DCMA could not provide a reason why the
WAWF data did not transfer to MOCAS correctly. DFAS Columbus personnel
researched these shipments and said that many of the errors occurred because of duplicate
submissions, but they could not provide additional support.

Shipment Date Used on DD250
For 91 shipments, the contractor did not enter an accurate shipment date on the DD250.
All 91 shipments that contained an inaccurate shipment date on the DD250 used
destination acceptance. The bills of lading showed that the shipment dates on the
DD250s were not the dates the contractor actually shipped the items and, in most cases,
were long before the actual shipment date. DFARS Appendix F provides that the
shipment date is the date that the shipment is released to the carrier. However, it also
permits contractors to estimate the shipment date, but it does not limit the amount of time
allowed between the estimated and actual shipment dates. We observed estimated
shipment dates of up to 6 months before the actual shipment date. In these instances, the
estimated dates were not representative of the actual shipment date.

A contractor also prepared DD250s for a period of performance for services and entered
the performance starting date as the shipment date. According to DFARS, the shipment
date for services must be the date the services are completed. The contractor dates were
inaccurate because the earliest date the receiving official can accept the services is the


                                            16
ending date of the period of performance. DCMA was unable to explain why the
contractor did not enter the correct shipment dates on the DD250s.

For destination acceptances, DFAS Columbus relies on the shipment date to calculate
constructive acceptance for determining the date Prompt Payment interest begins to
accrue. An inaccurate shipment date hinders the correct calculation of any Prompt
Payment interest due to the contractor. We did not observe any DoD policy or actions to
ensure that estimated shipment dates were accurate. Additionally, in most instances, the
contractor provided estimated shipment dates that were long before the actual shipment
date. Therefore, USD(AT&L) should develop policy that assigns responsibility for
ensuring the accuracy of destination acceptance shipment dates.

Conclusions
Because of the untimely shipment and acceptance data in MOCAS, DFAS Columbus
understated the DoD March 31, 2007, accounts payable balance by at least
$453.9 million. Out of the 1,824 shipments we sampled, DFAS Columbus should have
reported 1,022, totaling $98.8 million, as accounts payable as of March 31, 2007, but did
not. Specifically, all shipments in our sample that had a MOCAS acceptance date before
March 27, 2007, and that DFAS eventually paid were valid accounts payable.

Therefore, we used these results to conclude that all shipments in our universe of
MOCAS shipment and acceptance data that had an acceptance date before
March 27, 2007, and that DFAS paid by September 30, 2007, also were valid payables.
In our universe of MOCAS data, 3,915 shipments fell into this category. DFAS
Columbus did not report any of these shipments in the March 31, 2007, accounts payable
balance. Table 5 shows the number of unreported shipments and the unreported accounts
payable amounts related to those shipments.

                    Table 5. Unreported Accounts Payable Balance
                                      (in millions)
                                                    Number of                        Dollar
                 Accounts Payable Shipments         Shipments                         Value
                 Sample                                 1,022                         $98.8
                 Remaining Universe                     3,915                         355.1
                 Unreported Balance                     4,937                        $453.9


Compliance With the Prompt Payment Act
Because of inaccurate shipment, receipt, and acceptance dates in MOCAS, a risk exists
that DFAS Columbus may not have complied with the Prompt Payment Act on 334
shipments.8 According to the Act, the date upon which any interest penalty begins to


8
 Of the 334 shipments with inaccurate shipment, receipt, or acceptance dates, the inaccuracies also had an
effect on the accounts payable balance for 290 shipments. The remaining 44 shipments only represent a
potential noncompliance with the Prompt Payment Act.


                                                    17
accrue is the later of the invoice receipt date or the date acceptance of goods or services
occurs.

DFAS Columbus has procedures for calculating a constructive acceptance date for
instances in which it needs to determine interest owed to the contractor. Specifically, for
destination shipments, DFAS relies on either the receipt or shipment date of the goods to
determine the constructive acceptance date. DFAS compares the constructive acceptance
date to the invoice receipt date to determine the payment due date, which is the date any
interest penalty begins to accrue. For source shipments, DFAS relies on the acceptance
date entered in MOCAS and the invoice receipt date to determine the date in which any
late payment interest penalty begins to accrue, as prescribed by the Act.

Therefore, if MOCAS contains inaccurate shipment, receipt, and acceptance dates, DFAS
Columbus may not properly identify whether it owes the contractor Prompt Payment
interest or what amount of interest is owed. We did not perform specific audit procedures
related to this risk; we only identified that noncompliance with the Prompt Payment Act
could occur for these shipments.

Recommendations, Client Comments, and Our
Response
Revised Recommendation. As a result of client comments, we deleted
Recommendation B.1.c. and revised draft Recommendation B.2.c.(1) to clarify our
intention that this recommendation only applied to receiving reports for source
acceptance contracts that did not have alternate release procedures. We also renumbered
Recommendation B.3.a to B.3.

B.1. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics:

       a. Develop policy to ensure that the receiving officials at the buying activities
follow the Federal guidance that directs them to sign the Receiver’s Use block
(Block 22) of the receiving report (DD Form 250) to annotate the receipt of goods on
the date of the carrier’s arrival.

       b. Develop policy that assigns responsibility for ensuring the accuracy of
destination acceptance shipment dates.

Client Comments. The Director, Defense Procurement, Acquisition Policy and Strategic
Sourcing concurred with the recommendations. He stated that WAWF, the mandatory
system for submission of receiving reports requires that “Inspectors” and “Acceptors” of
the goods and services being delivered accurately account for their receipt and
acceptance.

Our Response. The Director’s comments were not responsive. Recommendation B.1.a.
suggests that he develop better policy for receiving officials, not the inspecting or
accepting official. The Director did not respond to Recommendation B.1.b. that he
develop a policy to assign responsibility to DoD personnel to ensure the accuracy of the


                                             18
contractor shipment date for destination shipments. Additionally, the Director’s
comments did not explain how the required use of WAWF meets the intent of the
recommendations.

We request that the Director reconsider his position on Recommendation B.1.a. and
B.1.b. and provide comments to the final report that indicate whether he plans to develop
policy to improve the accuracy of shipment date information.

B.2. We recommend that the Director, Defense Contract Management Agency:

       a. Enforce the Federal guidance that directs the DCMA accepting officials to
sign and date the Contract Quality Assurance block of the receiving report to
annotate the date of acceptance of goods or services.

Client Comments. The Director, DCMA partially concurred with this recommendation.
He stated that DCMA will clarify the procedures for processing a replacement transaction
through a DCMA information memorandum to its workforce. However, he stated that
these circumstances are extremely limited both in volume and location and will be
eliminated as paper documents will no longer be used.

Our Response. The Director’s comments were responsive. We did not perform a
statistically valid random sample of corrected DD250s, and our results cannot be
statistically projected. Therefore, we did not confirm whether corrections occur in
limited volume and locations.

       b. Direct the DCMA accepting officials to identify and follow contractual
requirements for signing receiving reports for acceptance.

Client Comments. The Director, DCMA partially concurred with the recommendation.
He stated that DCMA will ensure that the DCMA Guidebook will clearly state the
requirement that the receiving reports be accepted or rejected in a timely manner. He
also stated that he did not believe the audit was convincing that this was a significant
systemic issue.

Our Response. The Director’s comments were responsive. We performed a judgmental
sample, so our results could not be projected to the entire population. Therefore, we
could not confirm with statistical confidence that this was a significant systemic issue.
However, because we identified the problem in the judgmental sample and the DMCA
guidance did not address this situation, DMCA should provide guidance in the
Guidebook to ensure compliance with contractual requirements.

        c. Revise the Defense Contract Management Agency Guidebook to include
more specific guidance to ensure that the receiving report preparation process
occurs correctly and in a timely manner. Specifically, direct the DCMA accepting
officials to:

      (1) Ensure that the contractor prepares the receiving reports prior to
shipment on source acceptance contracts that do not permit Alternative Release
Procedures or Certificates of Conformance.


                                           19
Client Comments. The Director, DCMA did not concur with the recommendation. He
stated that there is no requirement that the contractor prepare the receiving reports at the
time goods are ready for shipment. He stated that the recommendation is not consistent
with Federal and DoD regulations and that he cannot direct procedures that are contrary
to Federal regulations.

Our Response. We revised the recommendation to clarify that this recommendation is
related to source acceptance contracts that do not have alternate release procedures or
where use of certificates of conformance are permitted. We specified that in those cases,
the receiving reports are prepared before shipment, as opposed to as soon as the goods are
ready for shipment.

This recommendation does not conflict with the Federal or DoD regulations.
Specifically, the DFARS Appendix F provides instruction on when a contractor is
required to distribute the receiving report. It states that distribution of the DD250 on
source acceptance contracts that do not permit alternate release procedures or certificates
of conformance should occur the day after the DD250 is signed. For those DD250s
where the contract specifies source acceptance, acceptance should occur before shipment.
Therefore, to ensure that acceptance occurs in accordance with the contract terms, the
contractor needs to prepare the DD250 for the DCMA accepting official before the
shipment. If the contractor does not prepare the DD250 before shipment on a source
acceptance contract without alternate release procedures, acceptance will not occur in
conformance with the contract.

We request that the Director, DCMA provide comments to the final report on our revised
recommendation.

       (2) Sign the receiving report with the date that the DCMA accepting official
had actually accepted the shipment. Specifically, if a prior DD250 was signed, and a
new DD250 is created, the DCMA official should use the original acceptance date.

Client Comments. The Director, DCMA partially concurred with the recommendation.
He stated that the replacement should use the date of acceptance on the original
document. However, he referred back to his comments for Recommendation B.2.a. that
he did not believe that this was a significant issue.

Our Response. The Director’s comments were nonresponsive. Although he agreed that
the original date should be used, he did not state that he would take action to revise the
DMCA Guidebook on this topic. We request that the Director provide comments to the
final report regarding revisions to the Guidebook.

      d. Develop and submit an Engineering Change Proposal to Defense Business
Transformation Agency and the Mechanization of Contract Administration Services
system to allow contractors to submit corrected DD250s through Wide Area
Workflow.




                                             20
Client Comments. The Director, DCMA concurred with the recommendation. He
stated that DCMA is working on a MOCAS system change request and an engineering
change proposal for WAWF is to be developed.

B.3. We recommend that the Director, Defense Finance and Accounting Service
Columbus ensure that the input technicians enter receiving report data into the
Mechanization of Contract Administration Services system correctly and in a timely
manner. Specifically, develop guidance related to processing receiving reports that
provides detailed instructions to enter the actual acceptance date when the
contractor submits a corrected copy of the receiving report.

Client Comments. The Director, DFAS Columbus partially concurred with
Recommendation B.3. The Director stated that acceptance occurs when a “proper”
DD250 is signed and does not relate to the signing of a materially defective DD250 or
other acceptance document.

Our Response. The Director’s comments were not responsive. Neither the FAR nor the
Prompt Payment Act mentions that acceptance occurs when a “proper” DD250 is signed.
We also could not locate any “materially defective” definition for a DD250 as referenced
by DFAS Columbus. During the audit, we noted instances in which the accepting official
did not date the corrected copy. In those instances, DFAS employees would be unable to
follow the Director’s policy because the date of the “proper” DD250 was unavailable.

We request that the Director provide comments to the final report regarding the
development of guidance that provides better instruction for entering dates for corrected
copies of receiving reports.

Client Comments on Material Control Weakness and Our
Response
Although not required to comment, the Director, DCMA commented on the Review of
Internal Controls section of the report. For the full text of DCMA comments, see the
Client Comments section of the report.

DCMA Comments. The Director, DCMA did not concur with the audit assessment that
material internal control weaknesses exist at DCMA. Specifically, the Director did not
believe that the audit sample selected represented enough contracts or shipments for the
auditors to reach that conclusion. The Director stated that because DCMA personnel
were using WAWF to accept goods and services, they had already implemented the
solution to the problems identified in the report.

Our Response. We disagree with DCMA’s assessment that there is no material internal
control weakness. We identified DCMA weaknesses that materially affected DFAS-
reported accounts payable balances for the MILDEPs. The weaknesses in the accuracy
and timeliness in processing acceptance and shipment data directly contributed to
underreported accounts payable balances.




                                            21
We understand the Director’s concerns about our scope of sample items and the locations
that we visited. We acknowledge that the scope may be small as they relate to the entire
population of DCMA acceptance and shipment records. However, we focused on large
transactions for the purpose of testing the valuation of MILDEP accounts payable
balances, and the sample transactions and audit results clearly demonstrate that corrective
actions are needed for the misstated accounts payable balances.




                                            22
Appendix A. Scope and Methodology
We conducted this financial-related audit from June 2007 through May 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We selected a judgmental sample of 171 shipments to assess the valuation and existence
of the DFAS Columbus-prepared 742 Report. We selected shipments with a high-dollar
accounts payable balance and those with zero dollar balances. We verified if the
accounts payable were valid and accurately valued by reviewing available invoices and
receiving reports. In some instances, we contacted the administrative contracting officer.
We used the available documentation and discussions with DFAS to determine whether
the accounts payable for the sample shipments were accurate. We also performed
postpayment analysis on the remaining 742 Report accounts payable balances. We did
not determine the causes for inaccuracies observed as a result of this analysis.

We selected a judgmental sample of 16 DCMA offices in similar geographic locations
with a large number of shipment records entered. Table A.1 shows a summary of our
sample universe with the number of individual contracts and shipment and acceptance
records for each DCMA office selected.

                 Table A.1. Sample of Shipment and Acceptance Records
          DCMA Office                       Total Contracts       Total Records
          Maryland                                      10                  340
          Philadelphia                                    6                  32
          Boeing – Philadelphia                         10                  235
          Hartford                                        5                  40
          APO – Pratt & Whitney                           5                  26
          APO – Hamilton Sundstrand                     10                   14
          Sikorsky Aircraft                               7                  14
          Boeing – St. Louis                            17                   72
          Chicago                                       51                  176
          Boston                                          7                  37
          Boston – Needham                                6                  25
          APO – GE Lynn                                 16                  522
          Texas                                         15                   66
          Phoenix                                         7                  25
          Northern California                           16                  171
          Santa Ana                                     13                   29
          Total                                        201                1,824



                                            23
In selecting the sample, we pulled high-dollar contracts and associated shipments and
selected shipments that DFAS Columbus did not report in its March 31, 2007, accounts
payable balance for sample review. We tried to ensure that we pulled mostly shipments
that appeared to have inconsistencies.

For the judgmental sample records, we verified validity of shipment and acceptance
information in MOCAS and confirmed information in Electronic Document Management
and Wide Area Workflow (WAWF). During site visits, we spoke with administrative
contracting officers, quality assurance specialists, and procurement technicians about our
sample shipment records. We requested and reviewed DD250s, bills of lading, and other
documentation to explain and augment the MOCAS information.

Based on the research and analysis performed for each sample record, we determined that
for shipments with both source and destination acceptance sites, the majority of our
shipments used hardcopy DD250s. Table A.2 shows the number of hardcopy and
WAWF DD250s for source and destination acceptances.

                    Table A.2. Type of DD250 by Acceptance Site
                     Acceptance       Hardcopy      WAWF
                     Site               DD250        DD250
                     Source                 857         618
                     Destination            286          61
                     Total                1,143         679

For our analysis of paid invoices, we selected all transactions from the DFAS Columbus
742 Report valued at over $4 million that were not selected in our judgmental sample.
We checked MOCAS to determine if invoices were paid after March 31, 2007, and if the
dollar value of the accounts payable on the 742 Report matched the net dollar value
disbursed. We determined unit prices from Electronic Document Access and noted the
dollar values we were able to find on acceptances in Electronic Document Management
and WAWF.

To determine the timeliness of the shipment and acceptance information we allowed
2 business days for the authorized government representative to sign the DD250 after the
contractor prepared it, for source acceptances, or the carrier delivered the goods, for
destination acceptances. We also allowed an additional 3 business days for either DCMA
or DFAS input technicians to enter the date into MOCAS after the DD250s were signed.
We based our determinations on the DFARS requirements for contractors related to
timely distribution of DD250s. We counted any days beyond 2 that the authorized
government representative took to sign the DD250 and any days beyond 3 that it took for
the information to get entered into MOCAS, and we classified the shipment as untimely.

We applied SFFAS No. 1 and No. 5 to the receipt and acceptance information contained
in MOCAS and associated feeder systems for the contracts selected for review. Federal
Acquisition Regulation 46.5, Acceptance, was also relevant as it provides that acceptance
can occur at various locations and points in time. For consistency across the MILDEPs


                                           24
and representative of the business practices that we observed, we deemed acceptance for
accounting purposes to occur as specified by the terms of the contract, normally as either
source or destination. In instances that the contract stated source acceptance, we
concluded that acceptance must occur before shipment.

We limited the scope of the audit to information contained in the Unmatched Detail
Report (742 Report) for March 31, 2007. During the course of the audit, some
information, such as bills of lading, were not always available. If no information or
documentation was available for us to verify shipping, receipt, and acceptance dates, we
used the government-provided date.

Use of Computer-Processed Data
We relied on computer-processed data contained in MOCAS. Specifically, we relied on
MOCAS acceptance data when the government acceptance date was before
March 27, 2007. We performed tests on the acceptance data and found that the MOCAS
acceptance date never occurred before the actual acceptance date. We relied on
computer-processed MOCAS payment information related to those data. We performed
limited analysis on the summary data to ensure they generally represented lower level
feeder data.

Prior Coverage
During the last 5 years, the Department of Defense Inspector General and Air Force
Audit Agency have issued two reports discussing accounts payable. Unrestricted
DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

DoD IG
DoD IG Report No. D-2007-091, “Memorandum Report on Assessment of Defense
Accounts Payable Compliance with Generally Accepted Accounting Principles,”
May 4, 2007


Air Force
Air Force Audit Agency Project F2007-FB3000-0105.000, “Closure Memorandum,
General Fund Accounts Payable- Mechanization of Contract Administration Services
System Transactions,” November 21, 2007




                                            25
Appendix B. Material Inspection and
Receiving Report Guidance
Defense Federal Acquisition Regulation Supplement
Appendix F
DFARS Appendix F, “Material Inspection and Receiving Report,” December 19, 2006,
contains procedures and instructions for the use, preparation, and distribution of the
receiving report (DD250). It states that the contractor is responsible for distributing the
DD250. It also states that contractors are to make distribution promptly, but no later than
the close of business of the workday following, in most cases, the signing of the DD250
by the receiving official and shipment when contract quality assurance and acceptance
are performed at the destination.

DFARS Appendix F states that Block 3 of the DD250 is the Date Shipped. In this block,
the contractors should enter the date they release the shipment to the carrier or the date
the services are completed. Appendix F also states that the contractor may enter an
estimated date of release if the contractor will release the shipment after the date of
contract quality assurance, acceptance, or both. The contractors should enter an “E” after
the date when they estimate. DFARS Appendix F does not require the contractor to
reissue the DD250 showing the actual shipment date. It also allows the contractor to
prepare the DD250 at the time of contract quality assurance or acceptance before the time
of actual shipment when individual shipments are held at the contractor’s facility for
authorized transportation consolidation to a single bill of lading.

According to DFARS Appendix F, Block 21 of the DD250 is for Contract Quality
Assurance. In this block, the receiving official signs that the items listed on the DD250
conform to the contract in quality and quantity. DFARS Appendix F directs the receiving
official to sign and date in this block.

DFARS Appendix F states that Block 22 of the DD250 is for Receiver’s Use. The
authorized representative at the receiving activity must use this block to show receipt,
quantity, and condition of the items delivered. DFARS Appendix F states that the
authorized representative must enter the date the supplies arrived. It provides the
example of when off-loading or in-checking of the goods occurs after the day of arrival
of the carrier at the installation, and states that the date of the carrier’s arrival is the date
the goods were received for the purpose of Block 22 of the DD250.

Defense Contract Management Agency Guidebook
The DCMA Guidebook references DLAM 8000.3, Part 1, Chapter 10, “Material
Acceptance Processing DD Form 250 Procedures,” which is a historical guide containing
input procedures for processing DD250s as they apply to DCMA. Chapter 10 states that
the contract management office is responsible for processing source acceptance
documents and the shipment side of a destination acceptance DD250. It also states that
for internal control and Prompt Payment purposes, all DD250s are to be date-stamped


                                                26
immediately upon receipt at the contract management office and the office is to process
DD250s expeditiously, preferably within one business day of receipt.

According to DLAM 8000.3, Part 1, Chapter 10, the contractor is responsible for
preparing and distributing DD250s. The contractor must forward signed source
acceptance DD250s and the unsigned copies of destination acceptance DD250s to the
appropriate DCMA office. When the office receives a DD250, a DCMA input technician
enters the DD250 information into MOCAS, including the date the receiving official
signed the DD250 and the shipment document received date.

When entering the receiving official signature date, DCMA must enter the date from
Block 21A of the DD250. If this block is signed but not dated, DCMA must enter the
date from Block 3, which is the date shipped. For the shipment document received date,
DCMA must enter the date the office received the shipment document. This should be
the date stamped on the DD250.




                                           27
Defense Procurement, Acquisition Policy and Strategic
Sourcing Comments

                                                          Final Report
                                                           Reference




                   Click to add JPEG file




                                                        C. Deleted




                                  29
Click to add JPEG file




               30
Defense Contract Managment Agency Comments




                 Click to add JPEG file




                                31
Click to add JPEG file




               32
Click to add JPEG file




               33
                           Final Report
                            Reference




Click to add JPEG file




                         B.2.c(1) Revised




               34
Click to add JPEG file




               35
Defense Finance and Accounting Services Comments




                  Click to add JPEG file




                                 36
Click to add JPEG file




               37
                           Final Report
                            Reference




Click to add JPEG file




                         B.3.a Renumberd
                         to B.3




               38
Click to add JPEG file




               39
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

James L. Kornides
Mark Starinsky
Lisa S. Sherck
Amber M. White
Kate S. Fortkamp
Liz W. Scullin
